•*

No.

5n tK&e
€=>

“P

Csl

Uj^

S %j

r>
K—*
IU:

.*VJ
C3

Ll_l Z

m
u.°
o“
lxjQj

I1 <t 1LD.
y£

MO

Oco

t

0

Supreme Court of t!je ®mteb States
Samuel H. Sloan, petitioner
V.

Creighton W. Sloan
Sue H. Roe
Aiken County Probate Court
Respondents
On Petition for a Writ of
Certiorari to the Supreme Court
of South Carolina

v

Petition for a Writ of Certiorari
i

Samuel H. Sloan
1664 Davidson Avenue IB
Bronx NY 10453
917-507-7226
917-659-3397
samhsloan@gmail.com

1
Questions Presented
1. Upon discovering through DNA testing that the presumed son of the
deceased was in no way a child or a relative of the deceased but had
been unofficially adopted, must the courts reopen the case where as
here almost the entire assets of the deceased have already been
confiscated by the unofficially adopted child and must the estate be re­
awarded to the real biological son of the deceased?
2. Where upon retirement of the so-called probate judge, it has been
discovered that the judge never went to law school, never graduated
from college and had no qualifications whatever to be a lawyer or a
judge and yet she conducted hearings, made rulings on evidence and
basically pretended to be a qualified lawyer and had concealed her
lack of qualifications from the parties and petitioner had many times
demanded that she recuse herself, must this <?ase be reopened and re­
litigated before a real judge?
3. May a probate court in South Carolina take or accept jurisdiction
over the estate of the deceased where the deceased had never had any
property in South Carolina and had never lived, worked or resided in
South Carolina but had built and owned her own home and had
worked for her entire professional career as an official of the
Commonwealth of Virginia in Richmond and Lynchburg Virginia but
had been kidnapped and brought to South Carolina to get her money
and estate?

••
11

TABLE OF CONTENTS
Jurisdiction

1

Statement of the Case

1

Conclusion

11

Verification

12

Order of Supreme Court of South Carolina

13

Petition to Court of Appeals of South Carolina

16

Letter to Judge of Aiken County
South Carolina Probate Court

24

Photos of Sam and Creighton and newspaper clipping
of Dr. H. Marjorie Sloan attached to letter

27

Letter by Attorney Gary R. Fuelner to Judge Richard
Miller of Lynchburg Virginia Circuit Court

30

Follow Up Letters to Aiken County Probate Court

35

No.

f

gtajiretne Court of tfje ®ntteb &tate$
♦

Samuel H. Sloan, petitioner,
v.
Creighton W. Sloan,
Sue H. Roe,
Aiken County Probate Court,
Respondents.
On Petition for a Writ of Certiorari to the Supreme Court of
South Carolina
Petition for a Writ of Certiorari
Jurisdiction
The Final Decision of the Supreme Court of the State of South
Carolina was signed by all five justices of that court and dated
December 9, 2019
Statement of the Case
1. Dr. Helen Marjorie Sloan was bom on 17 March 1910 near
the family farm in Creston, Iowa. She was a child psychiatrist and a
medical doctor with a distinguished career starting in 1943 as acting
director of the Memorial Child Guidance Center in Richmond
Virginia, as director of the Lynchburg Child Guidance Center in

Lynchburg Virginia, as Staff Director of the Virginia State Colony and
Training School for Epileptics and Feeble Minded in Madison Heights
Virginia and as head of the Geriatrics division of Western State
Hospital in Staunton Virginia. She was called as an Expert Witness for
the Commonwealth of Virginia in many criminal cases. Her biography
is published in the First Edition of Who's Who in American Women.
2. Her eldest son Samuel Sloan was bom in 1944 in Richmond
Virginia. The second child was Creighton bom on June 27, 1946 but
we now suspect and believe that Creighton was not the natural son but
was unofficially adopted without any proceeding or court order
because at that time Dr. Sloan was director of a Home for Unwed
Mothers in the same building as the Memorial Child Guidance Center
in Richmond, Virginia where many children were bom whose mothers
did not want them and as she had the authority to issue birth
certificates she could have easily taken an attractive child as Creighton
was and listed herself as the mother. There are no childhood pictures
of Creighton other than the two pictures included in this petition.
3. Creighton has been a sickly child all his life, often in the
hospital with chronic illnesses. He has had medical difficulties all his
life, failing the seventh grade, flunking out of junior college, often
changing colleges, having difficulties keeping a regular job, unable to
get along with co-workers, stealing and wrecking her cars, finally
getting three masters degrees in dramatic arts at her expense but
unable to find steady employment in that field and always relying on
her for financial support.
4. Finally, when Dr. Sloan tried to cut him off, Creighton
kidnapped her and took her to North Carolina where he was living at
the time and then he had her pension and social security checks routed
to him where he could get the money. She escaped from his home in
North Carolina two times and went to her own home in Lynchburg
Virginia only to have him grab her and take her back to North
Carolina.
5. He hated her and often said, “I hate you with a purple
passion.” He said he wanted to get revenge. She was terrified of him.
Finally, Dr. Sloan escaped again and went to New York City where a
custody hearing had been scheduled for September 4, 1986 before

New York Supreme Court Judge Kristin Booth Glen regarding her
eldest son Samuel and his two children Peter and Mary Sloan who
were his children by Sam's Latvian wife Anda Baumanis of Riga
Latvia. Also present was Shamema Honzagool Sloan, aged 4, bom in
October, 1981 by his wife Honzgool from Chitral Pakistan. However
Shamema was not present in court on this day.
6. Just as the hearing was about to commence, Judge Glen's
phone rang. She took the call in chambers and then came out and
announced that the call was from Judge Larry Janow in Madison
Heights Virginia and he wanted Sam Sloan and his mother arrested for
taking Shamema out of state because the Roberts family was planning
to seek custody of Shamema. Therefore, Judge Janow wanted
Shamema aged 4 taken into custody by social services and rendered or
extradited from New York to Virginia.
7. Judge Glen said that she had seen Shamema in court the
previous day but as she was not in court on this day the child could not
be detained. However, Judge Glen was calling the New York City
Police to arrest Sam Sloan and his mother. Also present in court were
Anda's lawyer Walter Anderocci who said he was representing
Creighton Sloan too and he was planning to take Dr. Marjorie Sloan to
a place where Creighton could come and get her and take her back to
North Carolina. Hearing this, Dr. Sloan said, “I want nothing to do
with Creighton.”
8. The police arrived and took Sam Sloan and his mother to jail
at the New York City police station on Elizabeth Street, the police
station closest to the court. However, two hours later the police
released them both saying that they had been informed by the Amherst
County Virginia Commonwealth Attorney Ed Meeks that there was no
warrant for their arrest.
9. This demonstrated that Anda, the Roberts and Creighton were
all in contact with each other and conspiring. Realizing that Creighton
and the Roberts would try again and again to get their money and the
grandchild and since the Roberts were affiliated with the powerful
religious group headed by Jerry Falwell in Lynchburg, Virginia who
wanted to convert the child to the Christian religion, Dr. Helen
Marjorie Sloan applied for and obtained passports for herself and her

granddaughter Shamema. The three of them then caught a flight to Rio
Gallegos Argentina where Sam Sloan had a previous engagement as a
chess coach for a team of chess players for the World Under-16 Chess
Championships.
10. After the chess tournament was finished in Argentina and
they were preparing to leave Rio Gallegos, it was discovered that
Creighton Sloan had canceled all the credit and bank cards of Dr.
Marjorie Sloan and had frozen the funds of her bank accounts, so Dr.
Sloan was now left destitute and without funds.
11. Nevertheless, they three made their way to Buenos Aires
Argentina and from there to Rio de Janeiro Brazil and to Asuncion
Paraguay and from there to Madrid, Spain and Paris, France, not
crossing the USA believing they would likely be arrested and detained
if they set foot on US soil.
12. There, learning that Dr. Marjorie Sloan was in Paris France,
Creighton called the police there and tried to have her detained, but
she again escaped. They then went to Innsbruck Austria and from
there to Budapest Hungary and from there to Dubai United Arab
Emirates where the 1986 World Chess Olympiad was about to
commence.
13. Sam Sloan got a job as the chess columnist writing for the
Gulf News in Dubai which gave him enough income to support his
mother and daughter. They wound up spending four years in the
United Arab Emirates.
14. They also went to Kandy Sri Lanka where they hired two
domestic servants, Dayawathie and Renuka. One of them was to take '
care of the elderly grandmother, the other was to take care of the
daughter Shamema Honzagool.
15. On a subsequent trip in 1990, they went to Bangkok
Thailand where, after visiting the Crocodile Farm, Dr. Sloan became
ill and had to be hospitalized in the Bangkok General Hospital.
16. There, upon learning that Dr. Sloan had been hospitalized
and knowing that she was not willing to return to the United States
voluntarily, Creighton traveled to Bangkok and hired a lawyer named

Boonchoo to kidnap her out of the Bangkok General Hospital.
Creighton did not visit her in the hospital or even notify her that he
had been in Thailand. Creighton left Thailand and returned to USA
before the kidnapping took place so he would not be implicated.
17. During the four years where they had been going from
country to county, Dr. Sloan had been interviewed more than twenty
times by US consular officers stationed at the countries they visited.
Because Creighton had often had her pension and Social Security
checks routed from her address to his address in North Carolina, she
had specified that her checks would be personally picked up by herself
at whatever US Embassy she happened to be near and that nobody else
was allowed to receive her checks.
18. Dr. Sloan had made no secret of her whereabouts, so a US
Vice-Counsel would often come to visit her in view of Creighton's
allegation that she had been kidnapped and was being held against her
will. In one noteworthy instance, the US Consular Officer Robert
Murphy in Abu Dhabi knowing that Sam Sloan was in USA, tried to
take her by force but as she was stronger than he was she had fought
him off so he could not take her.
19. She knew the cruel fate that awaited her if Creighton ever
got her again. Finally, Boonchoo in Bangkok Thailand kept the
hospital room under surveillance and after waiting several days for a
time when Sam Sloan went out of the hospital to the post office, he
came in with a gang of men who injected her with knock out drugs
and took her by force and overcame her resistance. Shamema
Honzagool, her granddaughter, was present in the hospital room when
this happened and witnessed this kidnapping.
20. Boonchoo had her wheeled out on a gurney and put
unconscious on a TWA flight to America. Creighton's Uncle Cassel
Jacobson paid for this kidnapping. He later testified that he had paid
$60,000 for this.
21. Arriving at Cassel's home in Silver Spring, Maryland, he had
the address for both her social security check and her Virginia
Supplemental Retirement System check changed from her address at
the US Embassy in Abu Dhabi to his address in Silver Spring.

However, he soon found out that these changes of address would not
be honored because Dr. Sloan had previously strictly instructed both
agencies never to change the address for her checks because of the
many times that Creighton had changed her address to his own address
so he could get her money.
22. A second problem Cassel found was the nursing homes in
Maryland were not willing to hold Dr. Sloan against her will or to lock
her up as she was fully competent and capable of managing her own
affairs, especially as she kept trying to escape.
23. Creighton Sloan had recently moved to Aiken, South
Carolina, so Creighton and Cassel Jacobson devised a plan to transfer
her to South Carolina especially after learning that South Carolina
Law would allow her to be held in a “closed room” as Cassel Jacobson
testified before Judge Sue H. Roe, which Maryland law would not
allow.
24. Dr. Sloan was brought to South Carolina where Probate
Judge Sue H. Roe, without holding a hearing or proceeding of any
kind and without any notice to her or to Sam Sloan, who by then was
back living in his mother's house at 917 Old Trent's Ferry Road in
Lynchburg Virginia with his two domestic servants from Sri Lanka,
Dayawathie and Renuka and the by then their three children, detained
her. Learning that Cassel Jacobson had been unsuccessful in changing
the mailing address for the Social Security Checks and Virginia
Supplemental Retirement System checks from her address in Abu
Dhabi to his address in Maryland, “Judge” Roe ordered that the checks
be sent to Creighton's address instead.
25. Under the law of South Carolina and the law of every other
state, for a person to be found incompetent and have their rights taken
away, there must be medical examinations and testimony by qualified
doctors and psychiatrists and there must be notice and the opportunity
for a hearing to all of the children. None of this was done.
26. Moreover, in this case, “Judge” Roe specifically ordered that
the eldest son Sam Sloan NOT be notified. During this entire time,
Sam Sloan was searching for his mother. The last time he had seen her
was just before she had been kidnapped out of the Bangkok General

Hospital. He did not even know to which state or country she had been
taken. She might have been taken to Sri Lanka or to Virginia or to
Iowa.
27. Eventually, after searching for three months, he found out
from the police that she was being held in Aiken South Carolina but
by order of Judge Roe he was not allowed to see her. He was not
allowed to see her nor was she allowed to see him. Under South
Carolina Law a hearing must be held once a year to determine if her
condition has improved. No such hearing was ever held. Sam Sloan
never received any notice of the conditions or of the whereabouts of
his mother nor did he ever receive correspondence of any kind from
Judge Sue H. Roe or the Aiken County Probate Court.
28. Sam Sloan was one time able to get into the prison-like
facility where she was being held. One time four years later in May
1994, this happened after she had been kidnapped by Boonchoo in
September 1990, Sam Sloan got in because the Staff of the Mattie C.
Hall Health Care Center in Aiken South Carolina thought he was
Creighton. He was able to get in and speak to his mother for the first
and only time since she had been kidnapped in Bangkok and to
observe her walking around the facility testing all the windows and
doors trying to see if she could open them and escape.
29. When the staff of the Mattie C. Hall Health Care Center
realized Sam was not his brother, he realized had better get out. The
staff of Mattie C. Hall Health Care Center stopped his mother from
leaving with Sam and blocked her departure at the door. Sam got into
his car and drove out of town but soon the Aiken police cars
surrounded him and stopped his car, having been called by Creighton.
But they did not arrest him. Instead they detained a young woman
named Kerry Dumey who was a passenger who had been waiting in
his car.
30. Dr. Helen Marjorie Sloan died on 16 May 2002 at age 92,
having been held in the Mattie C. Hall Health Care Center for 13
years. Creighton had taken all her pension and social security checks
and all her bank accounts in Lynchburg. No accounting of funds has
ever been provided but altogether it must have been one to two million
dollars. The case of “Helen Sloan” in Aiken County Probate Court

does not even mention she has a son named Sam.
31. It is astounding that Petitioner's mother was psychiatrist
director of the Virginia Department of Mental Health and Hygiene and
the Memorial Child Guidance Clinic at 3001 Fifth Avenue, Richmond,
VA 23223 and then nevertheless she was kidnapped in Bangkok,
Thailand and taken to Aiken South Carolina where she was never
allowed to return to Virginia and held prisoner in the Mattie C. Hall
Health Care Center for 13 years until her death at age 92.
32. The judge who ordered petitioner's mother locked up was
Sue H. Roe. It was not until the retirement of Judge Roe was
announced in May 2016 at
https://www.scstatehouse.gov/sessl21_2015-2016/bills/1326.htm that
Petitioner and others discovered that Sue H. Roe had never graduated
from college, had never been to law school, had never passed the bar
examination and had never practiced law or met the qualifications to
be a lawyer and yet she had conducted hearings, made rulings on
evidence and pretended to be a qualified lawyer.
33. Petitioner has been to Aiken South Carolina where he
attempted to copy the case file only to discover that virtually the entire
case file including any evidence, pleadings and rulings made by
"Judge Roe" have been shredded or have disappeared. This is in
violation of South Carolina law that requires that court records be
preserved.
34. It was not until after the subsequent retirement of Judge Sue
H. Roe that it became known that Judge Roe was not a lawyer. She
had never been to law school. She never took the bar exam. She was
and is completely unlearned in the law. This explains why she did not
understand the legal requirements that a person cannot be detained
unless she is a danger to herself or a danger to others.
35. Ironically, Dr. Marjorie Sloan knew the law on this point
very well, because she was THE AUTHORITY on this law in Virginia.
She was an official of the Commonwealth of Virginia. She has been
called as an Expert Witness for the Commonwealth in many criminal
cases. All the judges knew her. It had often been up to her to decide
which prisoners went free and which were to be locked up in jail or in

a psychiatric hospital. She could order a prisoner released or kept
detained.
36. Petitioner has recently been to Aiken South Carolina and
has .ordered copies of the case file. Petitioner has found that there is
nothing to copy because the file is virtually empty. Petitioner does not
know if “Judge” Roe ordered the file to be shredded. Now there is
almost nothing there. There used to an order by Judge Roe that
petitioner remembers reading, but that order is not in the file.
37. After discovering that almost the entire case file had
disappeared, Petitioner wrote a letter to the new Probate Judge Tonya
L. Marchant, who is also not a lawyer, asking an explanation for the
fact that many documents had disappeared from the file including
letters written by Dr. Maijorie Sloan herself complaining that she had
been locked up and held without notice and a hearing.
38. The only response to this letter has been a form type letter
from the court suggesting that Petitioner should hire a lawyer.
39. Petitioner had filed many petitions and even cases in federal
court, Sam Sloan vs. Sue H. Roe, 92-CV-02388-RJD-MDG, and had
set up a website and email group and had attended so called hearings
in the Aiken County Probate Court and appealed from one of the
orders. Judge Rodney A. Peeples heard the appeal but said that Judge
Roe “is a fine. Fine” probate judge. Petitioner is not aware whether
Judge Peeples knew that Judge Roe was not a lawyer and not a proper
judge.
40. Judge Peeples said he has played over the tapes taken in
hearings before Judge Roe. Those tapes cannot be found. Petitioner
has tried to order text or transcripts of the tapes but been unable to
obtain these tapes or the transcripts if any of the tapes. There is a sign
posted on the Aiken County courthouse wall saying Judge Peeples is a
business partner of Judge Roe. This was improper as Judge Peeples
should have recused himself.
41. It is not possible to bring Petitioner's mother back to life or
to restore the 13 years she lost by being kidnapped and held prisoner.
42. The Sloan Family had lived almost their entire lives in

Lynchburg or Richmond Virginia. They had never resided in or even
visited South Carolina. Sam Sloan has been appointed by the
Lynchburg Circuit Court as the administrator of the estate of his father
Leroy B. Sloan, an attorney and Special Agent for the Internal
Revenue Service and for the United States Treasury Department.
43. The time to appeal an order of the Aiken County Probate
Court is only ten days. Because Petitioner lives in Bronx New York,
by the time he has received an order and attempted to file a notice of
appeal, the ten days has expired. Petition has asked for extensions of
time which have been denied each time so petitioner has never been
able to have a proper appeal heard.
44. After attending the ISHI Conference, the The 30th
International Symposium on Human Identification in Palm Springs
California September 23-26, 2019 in Palm Springs California,
petitioner realized he could establish whether Creighton Sloan is really
his brother or not. If Creighton is not his brother and not the real son
of Dr. Marjorie Sloan, then all the property Creighton Sloan has taken
including all the bank accounts, the contents of the safe deposit boxes,
the house, the land and all the property Creighton Sloan has taken
must be returned to Sam. Accordingly Petitioner Sam Sloan filed a
letter appeal dated 28 March 2019 to the South Carolina Court of
Appeals which brings this case before this court.
45. Petitioner has received a decision of the South Carolina
Supreme Court signed by all five judges of the South Carolina
Supreme Court dated December 9, 2019 incorrectly naming the case
Sloan vs Sloan in the matters of the estate of Helen Marjorie Jackson
Sloan letter to the court dated Match 28, 2019 Appellate Case No.
2019-000452 in which the petition was denied. This gives this court
jurisdiction over this petition for a writ of certiorari. A copy of the
order of the South Carolina Supreme Court is annexed.
46. Petitioner has taken ALL the available DNA tests including
familytreeDNA, Ancestry, 23andme and Myheritage and has uploaded
the results to Gedmatch. These test results and the DNA test results of
his paternal cousin Jack Sloan and the children of his maternal cousin
Richard Jacobson establish that Sam Sloan is the real son of Dr.
Marjorie Sloan.

47. However, Creighton Sloan and his children have been asked
but have failed and refused to take any of the DNA tests. This creates
the presumption that he knows the tests will show that he is not the
real son of Dr. Helen Marjorie Sloan. He apparently long ago realized
that he was not really the son of Dr. Marjorie Sloan as he refers to her
as “Mrs. Sloan” and never calls her his mother.
48. The last will and testament of Dr. Helen Marjorie Sloan is
not in the court file and is presumed lost.
49. This brings up an issue that needs to be resolved by this
court because studies have shown that 17% of the people who take
these DNA tests find out that the person they thought was their father
was not their real father. There are bound to be a lot of cases like this
coming through the courts and these are issues this court should take.
50. Creighton Sloan said many times that he wanted to get
revenge on her. She said many times that she considered the greatest
accomplishment of her life to be that she designed and built her own
house in Lynchburg Virginia, so she could live out her old age‘there.
She never would have agreed to sell the house. He refused to spend
the night in her house and never entered there except to grab her and
drag her out. He got part of his revenge by having had the house sold
for essentially nothing as virtually all the proceeds went to pay his
attorneys. An added factor in that Dr. Helen Marjorie Sloan was NOT
a resident of Aiken South Carolina. She was kidnapped and taken
there by force. She had never been there before. This can be readily
established by a Freedom of Information Act Request, as the twenty
different US Consular Authorities who interviewed her in various
countries of the world during her 1986-1990 world travels no doubt
made and kept reports of her whereabouts, as well as did the FBI that
was often called about her case or cases.
CONCLUSION
For All of the Reasons Set Forth Above, This petition for a Writ
of Certiorari Should be Granted and in addition Creighton Sloan
should be ordered to take any of the DNA tests.
Samuel H. Sloan

Verification

Samuel H. Sloan, being duly sworn, states that he is the
Petitioner herein; that he has read the foregoing Petition for a Writ of
Certiorari and knows the contents thereof; that the same is true to his
knowledge except as to those matters stated to be alleged upon
information and belief, and as to those matters he believes them to be
true.

Samuel H. Sloan
Sworn to before me this 12th
day of March, 2020

NOTARY PUBLIC

